No. 20-6829

IN THE
SUPREME COURT OF THE UNITED STATES

JOSEPH J. BUTTERCASE,
Petitioner,
v.
STATE OF NEBRASKA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO
THE NEBRASKA SUPREME COURT

CORRECTED PETITION FOR REHEARING

Joseph J. Buttercase #76999
Nebraska State Penitentiary
P.O. Box 22500
Lincoln, Nebraska 68542-2500
(402) 471-3161
PRO SE PETITIONER

RECEIVED
APR 1 2 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

IN THE
SUPREME COURT OF THE UNITED STATES

CORRECTED PETITION FOR REHEARING

Pursuant to Rule 44 of this Court/ Petitioner Joseph J. Buttercase
respectfully prays this Court to grant rehearing of this Court's February
22, 2021 order. Buttercase v. Nebraska, No. 20-6829, 2021 WL 666720 (U.S.
Feb. 22, 2021). This petition for rehearing calls this Court's attention to
intervening circumstances of a substantial or controlling effect and to other
substantial grounds not previously presented.
In support of this petition, Petitioner submits the following:
1.

This case involves the challenge by Petitioner for postconviction

relief of his state convictions and sentences. Our country has seen first hand
that false accusations of sexual assault or misconduct, such as in Petitioner's
case, can destroy a person's good name, reputation, and life in the blink of
an eye. The news media will typically prosecute allegations of sexual assault
with fake news during pre-trial coverage and the accused's presumption of
innocence will disappear. This Court in Marshall v. United States, 360 U.S.
310 (1959), set aside a federal conviction "where the jurors were exposed
'through news accounts' to information that was not admitted at trial."
(emphasis added).
2.

Petitioner Joseph J. Buttercase was tried and sentenced before a biased

judge that had a conflict of interest in the case because he knew the alleged
victim. There is newly discovered evidence presented to the lower state courts
that supports a significant bias of the trial judge for "favortism or
1

antagonism as to make a fair judgment impossible." Liteky v. United States,
510 U.S. 540, 555 (1994). Furthermore, two jurors from Petitioner's trial
had already formed opinions at the voir dire prior to the commencement of
trial. "The theory of law is that a juror who has formed an opinion cannot
be impartial." Irwin v. Dowd, 366 U.S. 717, 722 (1961).
3.

Due process requires that a prisoner's claim of actual innocence

receive much more thorough and careful scrutiny and a hearing; where the
prosecution suppressed material exculpatory and impeaching evidence from the
defense, complex scientific issues surrounding the DNA results that are
difficult for laymen and judges to grasp, and the defendant is not afforded
a fair trial before an impartial judge and jury are involved.
4.

The Nebraska Supreme Court (without a full court) decided the important

federal constitutionality of the Nebraska Postconviction Act question in such
a manner that so far departed from the accepted and usual course of judicial
proceedings as to call for an exercise of this Court's supervisory powers
(Appendix A, pp.44-46). The lower state courts' denial of postconviction relief
to Petitioner Buttercase undermines the integrity of our criminal justice
system and, if left undisturbed, will result in a fundamental miscarriage of
justice. This Court should reconsider its denial of certiorari in this case.

2

CONCLUSION

For the foregoing reasons, Joseph J. Buttercase respectfully requests
that this Court grant rehearing and set aside the order denying the petition
for a writ of certiorari to the Nebraska Supreme Court.
Respectfully submitted,

/Joseph J^B uttercase #76999
y Nebraska State Penitentiary
P.0. Box 22500
Lincoln, Nebraska 68542-2500
(402) 471-3161
PRO SE PETITIONER
March 30, 2021

3

CERTIFICATE OF PETITIONER (RULE 44)
I hereby certify that this Petition for Rehearing from the denial of
certiorari is presented in good faith and not for delay, and that it is
restricted to the grounds specified in Rule 44.2, namely intervening
circumstances of substantial or controlling effect and other substantial
grounds not previously presented.
Executed on March 30, 2021.

yj3bsef>h J^/Buttercase #76999
r Nebraska State Penitentiary
P.O. Box 22500
Lincoln, Nebraska 68542-2500
(402) 471-3161
PRO SE PETITIONER

4

